No.

IN THE

~upreme «:ourt of tbe llntteb ~tate~
EMERSON ELECTRIC

Co., PETITIONER,

v.
SIPCO,LLC

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
4,824 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 30, 2020.

Colin Casey Hoga
Wilson-Epes Pri ing Co., Inc.

